This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.




                    REPORT OF INVESTIGATION

 UNITED STATES SECURITIES AND EXCHANGE COMMISSION
            OFFICE OF INSPECTOR GENERAL

                                     Case No. OIG·543

 Investigation Concerning the Role of Political Appointees in the SEC's
 Response to Record Requests Pursuant to the Freedom of Information
                 Act and From Members of Congress


                                      December 3, 2010
          REDACTION KEY


PII = Personal Identifying Information
      Protected by FOIA Exemptions (b)(6) & (b)(7)(C)
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients or this report should not disseminate or copy it without the Inspector General's
approvaL


                    REPORT OF INVESTIGATION
  UNITED STATES SECURITIES AND EXCHANGE COMMISSION
             OFFICE OF INSPECTOR GENERAL

                                      Case No. OIG·543

 Investigation Concerning the Role of Political Appointees in the SEC's
 Response to Record Requests Pursuant to the Freedom of Information
                 Act and From Members of Congress


                         Introduction and Results of Investigation

        On September 2, 2010, the Securities and Exchange Commission ("SEC" or
"Commission") Office of Inspector General ("DIG") opened an investigation in response
to an August 23,2010 letter from Senator Charles Grassley and Congressman Darrell
Issa, requesting that OIG conduct an inquiry into the SEC's.Office of Freedom Of
Information Act ("FOIA") Services to determine whether, and if so, the extent to which,
political appointees are made aware of information requests and have a role in request
reviews or decision-making. This letter from Senator Grassley and Congressman Issa
cited a press report that the Department of Homeland Security political appointees
reviewed requests for federal records by lawmakers, journalists, activist groups or
watchdog organizations.

       The DIG investigation did not find evidence that political appointees at the SEC
have played an improper role in the agency's review of or response to FOIA requests.
Although the DIG .investigation found that the SEC's responses to requests by members
of Congress for DIG reports are subject to review and approval by the agency's five
Commissioners, who are political appointees, the DIG did not find the limited role played
by the Commissioners in this process to have had a political impact on the SEC's
responses to requests for the DIG reports.


                                     Scope of Investigation

        The DIG requested the e-mails of employees who may have sent, received, or
been copied on e-mails relevant to this investigation, for the time period pertinent to the
investigation. The e-mails were searched using specialized computer search tools
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients ofthis report should not disseminate or copy it without the Inspector General's
approval.

throughout the course of the investigation. The OIG estimates that it obtained and
searched over 137,000 e-mails during the course of its investigation.

      The OIG took the sworn, on-the-record testimony of the following current SEC
employees:
                FOIA Empl. 1
        1.                   , Bran           nager, Office of FOIA Services, taken on
                                   FOIA Empl.
                October 15, 2010, (1          Testimony Tr.) attached as Exhibit 1.
                FOIA Empl. 3
        2.                    , Branch Manager, Office of FOIA Services, taken on
                October 18, 2010, (FOIA Empl. 3 Testimony Tr.) attached as Exhibit 2.
                FOIA Empl. 4
        3.                                                                 , Office of FOIA Services,
                                                     FOIA Empl. 4
                taken on October 18,2010, (                             Testimony Tr.) attached as
                Exhibit 3.
                CHMN Empl. 2
        4.                                                                                     Office of
                                                                         CHMN Empl. 2
                the Chainnan, taken on October 19,2010, (                               Testimony Tr.)
                attached as Exhibit 4.
                FOIA Empl. 2
        5.                      Branch Manager, Office of FOIA Services, taken on
                October 20, 2010, (FOIA Empl. 2 Testimony Tr.) attached as Exhibit 5.
                FOIA Empl. 5
        6.                                               Office of FOIA ServiCes, taken on
                                      FOIA Empl.
                October 26,2010, (    5            Testimony Tr.) attached as Exhibit 6.
                CHMN Empl. 1
        7.                       Senior Advisor to the Chairman, Office of the Chairman,
                                           CHMN Empl.
                taken on October 27,2010, (1          Testimony Tr.) attached as Exhibit 7.

        8.      Celia Winter, FOIA Officer, Office of FOIA Services, taken on October
                28,2010, (Winter Testimony Tr.) attached as Exhibit 8.

        9.      Barry WaIters, Chief FOWPrivacy Act Officer, Office of FOIA and
                Records Management Services, taken on October 28, 2010, (Walters
                Testimony Tr.) attached as Exhibit 9.
                OGC Empl. 1
        10.                                                                        Office of the General
                                                                    OGC Empl.
                Counsel, taken on November 4,2010, (                1           Testimony Tr.) attached as
                Exhibit 10.

                                                      2
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients or this report should not disseminate or copy it without the Inspector General's
approval.


              OLIA Empl. 1
        11.                                                       Office of LegislatOLIA Empl. 1
                                                                  ovember 4, 2010,               Testimony
                 Tr.) attached as Exhibit 11.

        12.      Elizabeth Murphy, Secretary, Office of the Secretary, taken on November
                 12,2010, (Murphy Testimony Tr.) attached as Exhibit 12.
               SECY Empl. 1
        13.                                                      Office of the Secretary, taken on
                                        SECY Empl. 1
                 November 15, 2010,                        Testimony Tr.) attached as Exhibit 13.

        In addition, the OIG obtained and reviewed numerous documents from the Office
of FOIA Services ("FOIA Office"), including documents describing the process for
responding to FOIA requests and a list of FOIA liaisons throughQut the agency. The OIG
also obtained and reviewed a list of all SEC political appointees from the Office of
Human Resources ("ORR").


                                   Relevant Legal Standard

       The Commission's regulations require its employees to perform their duties
impartially and independently, without regard to partisan or popular demands. 17 C.F.R.
§ 200.58 states:

                [T]his is an independent Agency, and in performing their
                duties, members should exhibit a spirit of firm
                independence and reject any effort by representatives of the
                executive or legislative branches of the government to
                affect their independent determination of any matter being
                considered by this Commission. A member should not be
                swayed by partisan demands, public clamor or
                considerations of personal popularity or notoriety.

In addition, 17 C.F.R. § 2oo.735-2(a) states:

                The Securities and Exchange Commission has been
                entrusted by Congress with the protection of the public
                interest in a highly significant area of our national
                economy. In view of the effect which Commission action

                                                       3
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

                frequently has on the general public, it is important that
                members, employees and special Government employees
                maintain unusually high standards of honesty, integrity,
                impartiality and conduct. They must be constantly aware of
                the need to avoid situations which might result either in
                actual or apparent misconduct or conflicts of interest and to
                conduct themselves in their official relationships in a
                manner which commands the respect and confidence of
                their fellow citizens.


                                  Results of the Investigation

I.      The FOIA Process

        As noted on the SEC's public website, FOIA provides that any person has the
right to request access to federal agency records or information. See "SEC FOWPA
Program," http:Uwww.sec.gov/foia.shtml.attachedasExhibitI4.at1. All agencies of
the United States government are required to disclose records in response to a written
request, except for those records that are protected from disclosure by the nine
exemptions and three exclusions of FOIA. Id.

       This section discusses the routine process employed by the SEC to respond to
most FOIA requests. The OIG found the SEC's process for responding to FOIA and
Congressional requests for OIG reports to differ from the process for other FOIA
requests. Sections II. and III. below address the agency's process for responding to
requests for OIG reports.

        A.      The Role of the FOIA Office

        The SEC's intranet website describes the FOIA Office as "responsible for
receiving and responding to requests for nonpublic records under the Freedom of
Information Act." "Office of Freedom of Information Act (FOIA) and Records
Management Services," http://intranet.sec.gov/divisions officeslhgo/ofrms/ofrms-
home.html, attached as Exhibit 15. SEC FOIA Officer Celia Winter testified that the
FOIA process at the SEC is centralized and that every FOIA request "that comes into the
agency comes into the FoiA office." Winter Testimony Tr. at 8-9.



                                                 4
This document is subject to tbe provisions ortbe Privacy Act or 1974, and may require redaction
berore disclosure to tbird parties. No redaction bas been performed by the Office or Inspector
General. Recipients or this report should not disseminate or copy it without the Inspector General's
approval.

                                    FOIA Empl. 1
          FOIA Branch Manager                        testified tliat, upon receiving a FOIA request
from the public, Winter or one of the four FOIA OfFOIA Empl. 1 nch managers reviews the
request to make sure it qualifies as a FOIA request.                     Testimony Tr. at 12. Next, the
FOIA Office categorizes the FOIA request by type of request and type of requester, at
which point Winter assigns an individual in the FOIA Office to respond to the request.
WaFOIA Empl. 3 monyTr. at 12, 14; WFOIA Empl. 2 imonyTr. at 9; FOIA       1
                                                                              Empl.
                                                                                    Testimony Tr. at 12-
13;              Testimony Tr. at 10;               Testimony Tr. at 8. The FOIA Office then
gathers the responsive records, analyzes the records for FOIA exemptions, and releases
the records that the FOIA Office                 find to be privilege                     Testimony Tr. at
                                    FOIA Empl. 5                            FOIA Empl. 3
12              rTestimony Tr. at 9;             Testimony Tr. at 10                       Testimony Tr. at
   FOIA Empl. 2
11              Testimony Tr. at 8.        FOIA Empl. 5
                                                                                         testified that he
de              hether information should be reda                    m a response to a FOIA request by
                                                        FOIA Empl. 5
using the standards set out in the FOIA statute.                     Testimony Tr. at 11.

        As noted above, as part of this investigation, the OIG requested and received from
OHR a list of all SEC employees who are political appointees. Ust of Political
Appointees, attached as EXhibit 16. The list of political appointees provided by OHR
indicates that none of the FOIA employees or managers were politically appointed.
Exhibit 16.

        B.          The Role of the Office of the General Counsel in the FOIA Process

             The Office of the General Counsel ("OOC") adjudicates appeals of initial FOIA
determ                      e FOIA Office. Walters Testimony Tr. at 15;FOIA Empl. 3 Testimony at
           FOIA Empl. 4
12-14;                      Testimony Tr. at 14;FOIA Empl. 2 Testimony Tr. at 9-10.
                                                                                     FOIA Empl. 3
               WPrivacy Act Officer Barry Walters and FOIA Branch Manager
FOIA Empl. 3
                 testified that the FOIA Office occasionally co                OGe in making its
                                                                 FOIA Empl. 3
                determinations. Walters Testimony Tr. at 15;                  Testimony at 13.
       FOIA Empl.
       5       testified that, from his perspective, in matters in which OGe plays a role,
OGC's involvement tends to delay the response to ForA request                  t "[s]ometimes r
                                                                    FOIA Empl.
have a hard time getting a response, depending on what r need." 5              Testimony Tr. at
42. Winter also testified that the participation of OGC tends to slow the SEC's response
to a FOIA request. Winter Testimony Tr. at 45-46.

      The list of political appointees pravided by OHR indicates that none of the OGC
employees or managers involved in the FOIA process were politically appointed. Exhibit
16.


                                                    5
   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
   before disclosure to third parties. No redaction has been performed by the Office of Inspector
   General. Recipients orthis report should not disseminate or copy it without the Inspector General's
   approval.

              C.       The Role of the Office of the Chairman in the FOIA Process
            CHMN Empl. 2
                                                                                  for the Office of the
                               CHMN
   Chairman, testified that         is responsible for coordinating responses
                               Empl. 2                                                         uests
                                                                                  CHMN Empl. 2
   that are referred to th               the Chairman from the FOIA Office.
                           CHMN Empl. 2
   Testimony Tr. at 10.                  testified that these referrals are only for FOIA requests
   for documents that may be in the possession of the Office of the Chairman. Id. CHMN Empl. 1
  CHMN Empl. CHMN Empl. 1
  1                              to the Chairman and the supervisor of thePII
 PII
                           testified that he does not see FOIA requests for documents unless
   they are for records in the custody of the Office of the Chairman. CHMN   1
                                                                                  Empl.
                                                                                        Testimony Tr.
  at 9-10,18.
            CHMN Empl. 2                 CHMN
                     testified that Empl.
                                    2
                                          has never had a situation in which someone in the
  Office of the C             d her that a record should not be produced in connection with a
                 CHMN Empl. 2
  FOIA request.               Testimony Tr. at 16. CHMN
                                                      1
                                                          Empl.
                                                                testified that the Office of the
  Chairman decided that the FOIA Office, not the Office of the Chairman, would make the
  redaction decisions with respect to d             sin the possession of the Office of the
  Chairman requested through FOIA. CHMN Empl. 1 Testimony Tr. at 17-18.                   .

            Winter testified that the Office of the Chairman is only consulted in connection
    with a FOIA request if the Office of the Chairman needs to conduct a search for
    responsive records. Winter Testimony Tr. at 15-16. Walters testified that the Office of
    the Chairman does not play any role in the FOIA process, and that he is not aware of any
    situation in which a Commissioner or anyone in the Office of the Chairman has ever
    dictated to him about the release of a document he was reviewing in connection with the
    FOIA exemptions. Walters Testimony Tr. at 15, 46. Office of Legislative and
         rgovernmental Affairs ("OLIA") OLIA Empl. 1                                testified that
OLIA
Empl. 1 did not have any knowledge or information about Chairman Schapiro, the
    Commissioners, or any political appointees at the Commiss                 ing any role in
                                                                 OLIA Empl. 1
    influencing any decision by the SEC staff relating to FOIA.               Testimony Tr. at 8, 9.
   FOIA Empl. 1
                 testified that FOIA
                                Empl. did not recall any situations in which the Office of the
                                1
  Chairman reviewed a FOIA matter that did not involve documents in the Office of the
  Chairman's possession or control. FOIA 1
                                            Empl.
                                                  Testimony Tr. at 22. FOIA
                                                                          1
                                                                              Empl.
                                                                                     testified that, to FOIA
                                                                                                        Empl.

  knowledge, none of the FOIA requests thatEmpl. 1 has been involved with were reviewed1by
                                                   FOIA

  the Commissioners. Id. at 30. FOIA Empl. 3 testified that the FOIA Office does not usually
  interact with the Office of the Chairman concerning FOIA ma                          s the Office of the
                                                                        FOIA Empl. 3
  Chairman possesses the records at issue in the FOIA request.                          Testimony Tr. at
  13-14, 17. FOIA Branch Manager FOIA Empl. 2               testified that he has not had a situation

                                                      6
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been perfonned by the Office of Inspector
General. Recipients of this report should not disseminate or copy It without the Inspector General's
approval.

in which the FOIA Office notified the Office of the Chairman about               equest
                                                                    FOIA Empl. 2
unless it involve FOIA Empl. 4                               man.                Testimony
Tr. at 11. FOIA                                              testified that he was not
aware of any requirement or suggestion that the Commission approve responses to FOIA
requests. FOIA Empl. 4       Testimony Tr. at 17.

             The list of politically appointed individuals provided by OHR includes the SEC's
 Chief of Staff, Didem Nisanci, and its Director of Communications, Myron Marlin, both
 of whom work in the Office of the Chairman. Exhibit 16. Based upon its review of
 documents and testimony of witnesses, the 01G did not find Nisanci or Marlin to have
 played any                     e                  ssof             dingto FOIA requests. Walters, Winter,
FOIA Empl. 3       FOIA Empl. 2  FOIA Empl. 4           FOIA Empl.
                                                   and 5           all testified that they have not had any
contact with Nisanci or Marlin concerning FOIA matters. Walt                                           onyTr. at 20;
Wi                          yTr. at 20-21; FOIA Empl. 3         estimony Tr. at 18; FOIA Empl. 2 Testimony Tr. at
      FOIA Empl. 4                                    FOIA Empl.
 16;                       Testimony Tr. at 17; 5                Testimony Tr. at 34-35. CHMN Empl. 1 testified
 that Marlin is given notice of responses to FOIA requests prior to their release by the
SEC, but he could not                          y instance in which Marl                   ed concerns about
                                  CHMN Empl. 1                                 FOIA Empl.
 releasing information.                        Testimony Tr. at 22-23. 5                   testified that he has never
known Chairman Schapiro to have played a role in the release of a FOIA report. FOIA Empl. 5
Testirpony Tr. at 35. Winter testified that she has never communicated with Chairman
Schapiro regarding FOIA matters. Winter Testimony Tr. at 22.
         OGC Empl. 1
                                                                 who has played a role in the
redaction process for OIG reports requested by members of Congress, testified that he has
never had a conversation with Chairman Schapiro or OGC Empl. iabout redactions to
           ents sought under FOIA or through Congress. 1             Testimony Tr. at 8, 51-52.
OGC Empl. 1
           also testified that he did not recall ever having a conversation with Marlin
concerning redactioOGC Empl. 1 cuments, but that it was possible that such conversations
occurred. Id. at 51.              testified that the Office of the Chairman has not been
involved in the reda              ocess for reports requested either by Congress or under FOIA,
apart from involvement by Kayla Gillan, SEC Deputy Chief of Staff, "at a very collateral
or high level." Id. Winter testified that Gillan was involved in FOIA matters for a period
time during a transition period for one of the FOIA Office managers. Winter Testimony
Tr. at 21. Winter testified that Gillan's concern was with consistency and communication
issues, not particular redactions or FOIA requests. Id. at 21-22. Walters testified that
when he first began in his position as Chief FOINPrivacy Act Officer, he may have
discussed a FOIA matter with Gillan, but that neither Gillan nor anyone else in the Office
of the Chairman has expressed to him that certain information should or should not be
redacted or released pursuant to a FOIA request. Walters Testimony Tr. at 21.

                                                          7
This document is subject to the provisions or tbe Privacy Act or 1974, and may require redaction
berore disclosure to third parties. No redaction bas been performed by tbe omce or Inspector
General. Recipients or tbls report should not disseminate or copy it without the Inspector General's
approval.

        The OIG confirmed that Gillan, who was not included on the list of SEC political
appointees provided by OHR, was both originally appointed as a Senior Advisor and
promoted to Deputy Chief of Staff pursuant to Schedule A Excepted Service appointing
authority. See February 15,2009 and March 15, 2009 Notification of Personnel Actions,
attached as Exhibit 17. 1

          D.         The Role of the Office of Legislative and Intergovernmental AtTairs in
                     the FOIA Process

        Winter testified that OUA is sometimes notified of FOIA responses but is not
consulted for their input on exemptions. Winter Testimony Tr. at 18. FOIA Empl. 3 testified
that OUA                otice of requests from a member of Congress. FOIA Empl. 3 Testimony
Tr. at 16. FOIA Empl. 3 testified that the FOIA Office does not seek guidance concerning
FOIA redactions from OLlA, but rather that the FOIA Office decides what records to
withhold or release on its own. [d.

            The only political appointee in OUA, according to the list of political appointees
provided by OHR, is OLIA Empl. 1                                              Exhibit 16. Based upon its
review of documents and testimony of witnesses, the OIG did not fmd OLIA                       1
                                                                                                    Empl.
                                                                                                            to have
pla         any role in the SEC's process o sponding to FOIA requests.                         OLIA Empl. 1
                                                                                                           testified
      OLIA                                       OLIA
 thatEmpl.
      1
             is not a FOIA liaison and that Empl.1
                                                      has not played any role in reviewing releases
           FOIA or redacting documents released under FOIA. OLIA              1
                                                                                  Empl.
                                                                                        Testimony Tr. at 8.
OLIA Empl.                         OLIA
1           further testified thatEmpl. 1 has not participated in the redacti                rocess for
            ents released pursuant to a Congressional request, nor has OLIA          Empl. 1 par              din any
                                                                                                  FOIA Empl.
decision whether to release a document requested b                           ress. [d. at 9. 5
                                                                 FOIA Empl.                                   OGC Empl. 1
that he has n r had any interact s with OLIA          1
                                                          Empl. .5          Testimony         Tr. at 58.
                                            OGC
testified that OGCE
                  mpl.
                       did not think that Empl. had ev          with OLIA Empl. 1 concerning redactions to
documents requested
                  1         through FOIA    1
                                               or by a Congressman. OGC     1
                                                                                Empl.
                                                                                        Testimony Tr. at 69.

          E.        The Role of the Office of Public AtTairs in the FOIA Process
                     FOIA Empl.
       Walters,5        arid FOIA Empl. 2 testified that the FOIA Office routinely gives to the
Office of Public Affairs ("OPA'') a copy ofthe FOIA Office's intended response to a
FOIA request from the media. Walters Testimony Tr. at 18;FOIA     5
                                                                     Empl.
                                                                           Testimony Tr. at 58;

         The Office of Personnel Management's ("OPM's") website explains that Schedule A must be used
by Federal agencies to hire attorneys because, by law, OPM cannot develop qualification standards or
examinations for attorney jobs. OPM Webpage, "Excepted Service Appointing Authorities," attached as
Exhibit 18. OPM's website also distinguishes Schedule A from the explicitly political excepted service
appointment, Schedule C (the form of appointment for Nisanci and Marlin). Id.

                                                            8
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
  before disclosure to third parties. No redaction bas been performed by the Office of Inspector
  General. Recipients or this report should not disseminate or copy it without the Inspector General's
  approval.

 FOIA Empl. 2                                          FOIA Empl.
            Testimony Tr. at 11-12. Winter and 5             testified that OPA has not taken an
  active role in determining how documents sho               redacted or rele            e FOIA
                                         FOIA Empl. 5                        OGC Empl. 1
  process. Winter Testimony Tr. at 16;                Testimony Tr. at 58-59             estified that
  he was not aware of any communications or consultation with OPA concerning the
  redaction process.OGC Empl. 1 Testimony Tr. at 70. Walters testified that he does not know of
  any situations in which OPA provided advice on whether a document should be redacted
  or released. Walters Testimony Tr. at 18-19.
           FOIA Empl. 3
                        testified that neither OPA nor any other SEC office has asked the FOIA
              econsider a withholding                  decision in response to a FOIA request.
FOIA Empl. 3                              FOIA Empl. 2
              Testimony Tr. at 17-18.                  testified that he is not aware of any
  occasions in which it received feedback from OPA concerning a response to a FOIA
  request. FOIA Empl. 2 Testimony Tr. at 12.FOIA Empl. 4         testified that although the FOIA
  Office gives notice to various offices such as OGC, OUA, OPA, or the Office of the
  Chairman before responding to certain FOIA requests "as a courte                             fice
                                                                               FOIA Empl. 4
  makes the final decisions as to how to respond to a FOIA request.
  Testimony Tr. at 19-20.

       The list of political appointees provided by OHR indicates that none of the OPA
 employees or managers were politically appointed. Exhibit 16.


 II.            The Process for Responding to Congressional Requests for OIG Investigative
                Reports

             On August 30,2010,OGC Empl. 1 circulated a protocol ("the protocol") to the FOIA
  office, OGC, OLIA, OPA, and other offices, titled "Procedures for Responding to
 Congressional Requests for DIG Investigative Reports." August 30, 2010 E-mail from
 OGC Empl. 1
                   to Barry Walters, attached as Exhibit 19. The protocol states that it has
 been prepared by OGC and the FOIA Office, in consultation with OIG, OLA and OPA.
 Id.

        Winter testified that either Gillan or General Counsel David Becker suggested that
 the SEC have a protocol to handle Congressional requests for documents, because
 congressional requests were being processed differently from FOIA requests. Winter
 Testimony Tr. at 24. OGC Empl. 1 estified that he belie             Becker had directed that this
                       OGC Empl. 1                       OGC Empl. 1
 protocol be prepared.             Testimony Tr. at 18.              testified that, to the best of his
 knowledge, no Commissioner reviewed or gave feedback on this protocol. Id. at 19-20.


                                                   9
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction bas been performed by the Office of Inspector
GeneraL Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

        The protocol states that it is intended to establish infonnal procedures for
responding to Congressional requests for OIG reports "where the request does not come
from a Committee or Subcommittee and where the requested reports have not previously
been publicly released under [FOIA]." Exhibit 19 at 1. Walters testified that he did not
recall seeing a request from a Congressional co                    since coming to work at the SEC
                                                     FOIA Empl. 1
in October 2009. Walters Testimony Tr. at 29.                     testified that requests by a member
of Congress on behalf of a constituent are               as FOIA requests and are processed in
                                            FOIA Empl. 1
the same manner as other FOIA requests.                  Testimony Tr. at 36-37.

         A.            The Role of the FOIA Office and OGC in Responding to
                       Congressional Requests for OIG Investigative Reports

        The protocol states that, upon receipt of a Congressional request for an OIG
report, the FOIA Office should prepare a draft redacted report within 14 calendar days of
receipt of the request. Exhibit 19 at 1. The protocol further states that OGC should
review the proposed redacted report, and that when OGC and the FOIA Office have
reached agreement on the redactions, OGC should provide a copy of the proposed
releasable report to the OIG for review. [d. at 2.
        FOIA Empl. 5                             PII
                              the FOIA Office's                              is assigned to respond to
requests for OIG reports, am                        er FOIA requests. FOIA Empl. 5Testimony Tr. at 10;
Walters Testimony Tr. at 14;FOIA         1
                                              Empl.
                                                    Testi              t 14,25;FOIA Empl. 3           onyTr. at
                                                          FOIA Empl. 2
10; FOIA Empl. 4
                        Testimony Tr. at 12, 21;                       Testimony Tr. at 9. FOIA
                                                                                            5
                                                                                                Empl.
                                                                                                      testified
that                    dictates the process for responding to Congressional requests for OIG
          FOIA Empl. 5
reports.               Testimony Tr. at 12.FOIA Empl. 5 testified that whenever there is either a FOIA
request or a request                    member of Congress for an OIG report, the FOIA Office
                           FOIA Empl.
consults with OGC.         5            Testimony Tr. at 12-13. In describing the collaborative effort
by OGC and the FO                       ce to redact an OIG report released to Congress and the public
                            FOIA Empl.
in April of this year,      5                    edthat the redactions to this report were "done by the
four corners ofthe FOIA."FOIA         5
                                           Empl.
                                                 Testimony Tr. at 47.
        FOIA Empl. 5
                  also testified that OGC detennined the redactions for the response to one
particular Congressional request for an investigative report issued by the OIG in
September of this year. FOIA  5
                                  Empl.
                                        Testimony Tr. at 17. FOIA
                                                             5
                                                                  Empl.
                                                                        testified that in that instance,
he had "zero" input in the redaction process for this                    ort, and that he was not
aware of the FOIA Office playing a role in these redactions. [d. at 19. FOIA         5
                                                                                         Empl.
                                                                                               testified,
however, that there were no FOIA requests for this report, only a Congressional request.
[d. at 17. FOIA
           5
                Empl.
                      testified that he thought that the FOIA Office should have had some
involvement with the redaction process for this OIG report at the beginning of the

                                                       10
This document is subject to tbe provisions of tbe Privacy Act of 1974, and may require redaction
before disclosure to tbird parties. No redaction bas been performed by tbe Office of Inspector
General. Recipients of tbis report sbould not disseminate or copy it witbout tbe Inspector General's
approval.

process, "[b]ecause the protocol says you should have involvement in the beginning." Id.
at 20. FOIA Empl. 5 testified that he believed there was a "lack ofobservance" ofthe
"Procedures for Responding to Congressional Requests for OIG Investigative Reports"
protocol in the lack of involvement of the FOIA Office in redacting the response to the
request for this report. Id. at 38.

         B.           The Standard Applied to Responses to Congressional RequestS for
                      OIG Investigative Reports

        According to the protocol, OGC and the FOIA Office should propose redactions
that are consistent with FOIA, the Privacy Act, and the 2009 directives of the President
and the Attorney General that agencies should administer FOIA with a presumption in
favor of disclosure and strive for open government and transparency. Exhibit 19 at 2.
The protocol also stated that, "OOC and the FOIA Office should seek to identify and
preserve all privileged information, such as law enforcement, deliberative process, and
third-party non-public financial material." Id. The protocol further states that, "[i]n
consultation with the OLA, the OGC may recommend (or the Commission may direct)
that the staff release certain non-public, privileged information that the Commission
could in its discretion withhold." Id.
        OGC Empl. 1
                    testified that he understood OGC to use FOIA principles in determining
 what information to redact from OIG reports requested by a member of Congress. OGC Empl. 1
 Testimony Tr. at 28-29, 47. OGC Empl. 1also testified that there have been times where OGC
 has "taken, to the extent that it didn't harm Commission operations, a generous view of
 what could be released under the deliberative process," and that such decision are made
 by OGC "in heavy consultation with the appropriate divisions" at the SEC "about where
 we can draw the line without impairing, for instance, general law enforcement procedures
 or ... a specific law enforcement matter." Id. at 47-48. FOIA5
                                                                  Empl.
                                                                        testified that, "[fJrom what
 I see, when I have teamed up [with OGC] it's generally a                   tandard" that is applied
                                                                 FOIA Empl.
 to responses to Congressional requests from information. 5                 Testimony Tr. at 22.
FOIA Empl.
5          testified that, from his perspective, he applies FOIA exemptions to reports that are
 the subject of a Congressional request in the same manner that he applies them to.FOIA
 requests. Id. at 56-57.
       OGC Empl. 1
               testified that he did not know whether the Commission is legally required
to provide any information in connection with a request by a Congressman, but that he
thought that, at a minimum, a member of             ssis entitled to what a member of the
general public is entitled to under FOIA. OGC
                                           1
                                              Empl.
                                                    Testimony   Tr. at 29-30. Winter testified
that, although "FOIA redactions really don't apply in a congressional release," OGC and

                                                 11
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
GeneraL Recipients of this report should not disseminate or copy It without the Inspector General's
approval.

other offices may apply other exemptions to records requested by Congress. Winter
Testimony Tr. at 25, 29-30. Walters testified that the SEC cannot withhold portions of a
document requested by a member of Congress on the basis of FOIA, but that the SEC
does withhold information in such circumstances by "conceptually using the same
theories that ... were it to get out into the public, it would have harm on an ongoing
investigation, or it would invade somebody'                   rivacy, or reveal classified
                                                FOIA Empl. 3
information." Walters Testimony Tr. at 27.                   testified that it is "a little curious"
for an agency to produce a document to Congress with the same redactions under FOIA
as that produced to the media, because it was his understanding that Congress can
demand to see agency documents while media request responses are governed by FOIA
exemptions. FOIA Empl. 3   Testimony Tr. at 26-27.

        5 U.S.C. § SS2(d) ofFOIA states: "This section is not authority to withhold
information from Congress." However, some Federal departments and agencies have
interpreted this exemption from FOIA to only apply to requests from a Congressional
committee or subcommittee, not to requests from individual members of Congress. See,
e.g., June 24, 2002 letter from the United States Environmental Protection Agency
Inspector General to RepresentativeJohn D. Dingell, attached as Exhibit 20;
"Congressional Access Under.FOIA," FOIA Update, Vol. V, No.1 (1984), attached as
Exhibit 21.

        C.      Commission Review of Congressional Requests for OIG Investigative
                Reports

       The protocol also sets forth the procedure for Commission review of proposed
responses to Congressional requests for OIG reports. According to the protocol:

                 OGC should draft an action memorandum for seriatim
                 circulation to the Commission that seeks Commission
                 approval for release of the redacted report to the
                 Congressional requester, any FOIA requesters, and under
                 certain circumstances, the general public. If the views of
                 the OIG have not been fully accommodated to the OIG's
                'satisfaction, the OGC should afford the OIG the
                 opportunity to include a rider with the action memorandum
                 that identifies and expl~ins any of the OIG's disagreements.
                 Nothing should be released until the Commission has
                 authorized the disclosure of the report. In the event that the
                 staff is recommending the Congressional requester be

                                                12
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
 before disclosure to third parties. No redaction has been performed by the Office of Inspector
 GeneraL Recipients of this report should not disseminate or copy it without the Inspector General's
 approval.

                      provided a version of the report with fewer redactions than
                      a version that has been or will be provided to someone who
                      has requested the same document under the FOIA, the
                      Commission should be so informed.
                       OGC Empl. 1
 Exhibit 19 at 3.      testified that these action memorandum recommendations to the
 Commission are usually a combination of the work of Walters, Associate General
 Counsel Richard Humes, and Deputy General Counsel Mark Cahn. OGC 1
                                                                     Empl.
                                                                           Testimony Tr.
 at 14.
        OGC Empl. 1
                   testified that it had been his experience that, even prior to this protocol's
 circulation, responses to Congressional requests for an OIG report had been reviewed by
 the Commission before release, apart from one report in early 2010 for which' staffing
 shortages had delayed release of a redacted                   of this OIG report to a member of
                                                  OGC Empl. 1
 Congress in a timely fashion. Id. at 15-16.                  testified that this OIG report, which
 addressed allegations of a conflict of interest, improper use of non-public information,
 and a failure to take sufficient action against Allied Capital Corporation ("Allied OIG
 Report"), was released under the authority delegated by regulation to OGC. Id. at 15-16.
OGC Empl. 1
            wrote in a March 17,2010 e-mail to Walters that this delegated authority derives
 from 17 C.F.R. § 200.30-140)(1). March 17,2010 E-mail from OGC Empl. 1                       to Barry
 Walters, attached as Exhibit 22. The regulation states, in part:

                      [T]he Securities and Exchange Commission hereby
                      delegates, until the Commission orders otherwise, the
                      following functions to the General Counsel of the
                      Commission, to be performed by him or her or under his or
                      her direction by such person or persons as may be
                      designated from time to time by the Chairman of the
                      Commission: ... To administer the provisions of 240.24c-l
                      of this chapter; provided that access to nonpublic
                      information as defined in such section shall be provided
                      only with the concurrence of the head of the Commission
                      division or office responsible for such information or the
                      files containing such information.

 17 C.F.R. § 240.24c-l(b) states, in part:

                      The Commission may, in its discretion and upon a showing
                      that such information is needed, provide nonpublic

                                                  13
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
 before disclosure to third parties. No redaction has been performed by the Office of Inspector
 General. Recipients of this report should not disseminate or copy it without the Inspector General’s
 approval.

                        information in its possession to any of the following
                        persons if the person receiving such nonpublic information
                        provides such assurances of confidentiality as the
                        Commission deems appropriate: (1) A federal, state, local
                        or foreign government or any political subdivision,
                        authority, agency or instrumentality of such government.
                        …
OGC Empl. 1
        wrote in his e-mail to Walters that, “we have consistently interpreted the cross-
 reference involving CFR 240.24c-1 to include Congress and its members.” Id.
          OGC Empl. 1
                    testified that, although OGC released the Allied OIG report pursuant to its
 delegated authority “with sort of a tacit approval of the Commissioners, … a number of
 Commissioners voiced their concern” that they did not want OIG reports to be released
 without Commission review on a repeated basis. OGC      1
                                                            Empl.
                                                                  Testimony at 15-16. OGC Empl. 1
 testified that either the Secretary or the Deputy Secretary informed him that the
 Commissioners were concerned about OGC using its delegated authority to release OIG
 reports in response to Congressional requests without Commission review. Id. at 55-57. 2
OGC Empl. 1
            also testified that one of the Commissioners’ counsels may have expressed interest
 in reviewing responses to Congressional requests because of “the Privacy Act concern
 and the potential to impede ongoing law enforcement matters.” Id. at 57. In a March 30,
 2010 e-mail to Walters and others concerning the release of another OIG report pursuant
 to a request by a member of Congress, OGC    1
                                                Empl. wrote: “I do not believe GC will be using

 its delegated authority on this matter given the sensitivities the Commissioners have
 expressed for OIG reports.” March 30, 2010 E-mail from OGC Empl. 1               to Barry
 Walters, attached as Exhibit 23.
          OGC Empl. 1
               testified that, as part of the Commission review process of responses to
 Congressional requests for OIG reports, Commissioners have had discussions with OGC,

 2              SECY Empl. 1
           SEC                                           testified that . 1 recalled a conversation with OGC  Empl. 1   in
 which . 1 told Empl. 1 that . 1 understanding was that OIG reports needed to go through the Commission
                   OGC

 for approval, that the delegated authority to OGC was limited to FOIA requests, and thatOGC         1
                                                                                                         Empl. should get

 an opinion from Associate General Counsel Richard Humes’ group as to whether that delegation of
 authority applied to other requests for nonpublic information. SECY  1
                                                                             Empl. Testimony Tr. at 19-20. SECY Empl.
                                                                                                              1
 testified that SECY
                Empl. could not recall ever having a conversation    with   a Commissioner or Commissioner’s
 counsel about  1 whether OIG reports should be released with or without Commission approval, and that SECY
                                                                                                                      Empl.
                                                                                                                      1
 statements to OGC
                 Empl. 1
                         on this topic were not based upon any information that SECY   Empl. had received from a
                                                   SECY Empl. 1                        1
 Commissioner or a Commissioner’s counsel.                      Testimony Tr. at 18-20. SEC Secretary Elizabeth
 Murphy testified that she did not make any communication toOGC       Empl. 1
                                                                                expressing the preference of one or
 more Commissioners to review requests from Congress for OIG reports. Murphy Testimony Tr. at 11-12.

                                                             14
nis document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

particularly about privacy and whether the identity of certain individuals should be left
unredacted. OGC Empl. 1 Testimony Tr. at 35-36. OGC
                                                1
                                                    Empl.
                                                          testified that, to the best of his
knowledge, the only objections raised by Commissioners to proposed redactions or
requests made for additional redactions to a report requested by both Congress and a
FOIA requester have concerned the identity of employees ''falling within the Privacy
Act's sphere." Id. at 35.
                               OGC Empl. 1
        On March 3, 2010,                wrote in an e-mail concerning the response to a FOIA
request for an OIG report that "several ofthe Commissioners have expressed the view
that even a heavily redacted version o                        ld be inappropriate for public
                                            OGC Empl. 1
release."               2010 E-mail from                     to Joan McKown, attached as
            OGC Empl. 1
Exhibit 24.             testified that, based upon his observations of the Commission review
process for OIG reports requested by a member of Congress, the only concerns expressed
by the Commissioners relate to whether-materials might "impa                        forcement
                                                                       OGC Empl. 1
functions or the Privacy Act interest ofindividuals." [d. at 57.                   testified that none
of the Commissioners or their counsel have asked about the party affiliation of the
requester of the document, and that he did not find the Commission review to constitute a
political review. Id. at 58-59.
                          OGC Empl. 1
       The OIG found             testimony that the concerns expressed by Commissioners
in connection with rele         G reports to members of Congress were limited to the
privacy of individuals and the compromise of ongoing law enforcement matters to be
supported by other documents and testimony in this investigation. In connection with the
approval of the release of an OIG report in April of this year,OGC
                                                               1
                                                                   Empl.
                                                                         wrote in an e-mail to
a counsel to Commissioner Elisse Walter:

                Kayla [Gillan] ended up talking directly with
                Commissioner Walter. What we have decided to do is
                redact junior level [non-SEq employees who have not
                been publicly named in a Government or Commission
                action, and who are not otherwise already publicly
                associated with the ... matter. That means that
                approximately 7 of the 18 [non-SEq employees identified
                in the OIG report will have their names redacted.
                                OGC Empl. 1           COMR Empl. 1
April 15, 2010 E-mail from                to                      attached as Exhibit
25. On one occasion, Commissioner Troy Paredes added a rider to the action
memorandum authorizing release of the redacted version of this OIG report that was
approved by the Commissioners and incorporated into the authorization, resulting in the

                                                 15
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

redac                       o                evelnon-SEC employees. April 15, 2010 E-mail
from OGC Empl. 1           to CHMN Empl. 3   attached as Exhibit 26; OGC
                                                                     1
                                                                         Empl.
                                                                               Testimony Tr. at
63-65.


III.     The Process for Responding to FOIA Requests For OIG Investigative
         Reports

         A.          The Process for Responding to FOIA Requests for an OIG
                     Investigative Report When There Is No Congressional Request for the
                     Same Report
        FOIA Empl.
        5        testified that he was not aware of any separate written guidan                ning
                                                  FOIA Empl.                      FOIA Empl. 5
the process for FOIA requests for OIG reports. 5             Testimony Tr. at 13.
testified that if there is a FOIA request for an OIG report for which there is no
Congressional request, the SEC's response is a collaborative process between the FOIA
Office and OGC. Id. at 15. Walters testified that when reviewing an OIG report for
release under FOIA, he applies the FOIA exemptions in preparing a response. Walters
Testimony Tr. at 31.
       OGC Empl. 1
               testified that, if there is a FOIA request for an OIG report for which there is
no Congressional request, the request "proceeds through the FOIA process" and the
responsive documents "are released under the authority ofthe FOIA Office to re
                                                                                        OGC Empl. 1
matters to the general public, pursuant to the appropriate redactions under law."
Testimony Tr. at 16. Walters testified that he did not know of an occasion in which the
Commissioner reviewed or was consulted concerning a document for release in
connection with a FOIA request in which there was no Congressional request. Walters
Testimony Tr. at 33,35. PII                   to the Chairman CHMN Empl. 1        testified that
he has not had any involvement in the process to determin                         onto redact
from a response to a FOIA request for an OIG report.      CHMN Empl. 1
                                                                       Testimony Tr. at 19.

         B.          The Process For Responding to FOIA Requests for an OIG
                     Investigative Report When There is a Congressional Request for the
                     Same Report

        The protocol states: "Once disclosure has been made to a member of Congress ...,
the FOIA Office will provide an identical redacted version to any FOIA requesters (albeit
with citations to the appropriate FOIA exemptions) unless the Commission determines


                                                 16
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction bas been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

that an alternate version of the report is appropriate in response to FOIA requests."
Exhibit 19 at 4. The protocol further states:

                       If the FOIA Office has received more than 3 requests for
                       the report, or believes that the public interest is sufficient,
                       the FOIA Office should consult with OPA, which will
                       consult with the Chainnan's Office as appropriate to
                       determine whether the redacted report should be posted on
                       the Commission's web page."
Id.

        Walters testified that his un~erstanding ofthe SEC's current position in situations
where there are both a Congressional request and a FOIA request for a document was to
ensure that the same redacted document is released to Congress as that released to the
FOIA requester. Walters Testimony Tr. at 29. Walters testified that this understanding is
primarily based on conversations with Gillan. [d. Winter and FOIA    5
                                                                          Empl.
                                                                                testified that, in
situations where there are both a Congressional request and a FOIA request for a
document, "the goal" is for the same redacted document to be released to both Congress
and the FOIA requester. Winter Testimony Tr. at 24-25;FOIA     5
                                                                   Empl.
                                                                         Testimony Tr. at 20-21.
Winter testified that although the SEC has in the past released a differently redacted
version of an OIG report to a Congressional requester than that released to a FOIA
requester, the SEC has not done so since the protocol was circulated. Winter Testimony
Tr. at 51. OGC
           1
               Empl.
                     testified that, in cases where there is a Congressional request and a
FOIA req             the same document, the same redacted document is released to both
Congress and the FOIA requester. OGC     1
                                            Empl.
                                                  Testimony Tr. at 16-17.3


                                                Conclusion

       The OIG investigation did not find evidence that political appointees at the SEC
have played an improper role in the review of or response to FOIA requests for SEC
records. The OIG investigation found that the SEC's responses to requests by members of
Congress for OIG reports are subject to review and approval by the agency's five
Commissioners, who are political appointees, and that, because ofthe agency's effort to
        FOIA Empl. 2
3                  testified that, in his experience at thePII                    as a FOIA Officer, if there
were both a FOIA request and a request from a Congressional committee or committee member for the
same document. the process for the FOIA request would be handled by the FOIA Office, while the request
from the Congressional committee or committee member would be handled in a different process, most
likely by the Office of Legislative Affairs. FOIA Empl. 2 Testimony Tr. at 24-25.

                                                      17
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to tbird parties. No redaction has been performed by tbe Office of Inspector
General. Recipients of tbis report should not disseminate or copy it without the Inspector General's
approval.

provide the same response to FOIA requesters as that provided to members of Congress
requesting an OIG report, the Commission's review process of requests by members of
Congress for OIG reports affects the responses to FOIA requests for these same OIG
reports. However, the OIG investigation did not find that the limited role played by the
Commissioners in the process of responding to requests by members of Congress for OIG
reports to have had a political impact on the SEC's response to these requests.

       A copy of this report is being provided for informational purposes to the Deputy
Chief of Staff to the Chairman, Commissioner Paredes, Commissioner Walter, the
General Counsel, the Chief Operating Officer, and the Chief FOWPrivacy Act Officer.



             OIG Empl. 1




Submitted:                                                 Date:

             OIG Empl. 2



Concur:                                                    Date:        1;2r/3hoI r
                                                                                           0



Approved:                                                  Date:       D~(.           5,? 61    t)




                                                 18
